XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
1300 I STREET, SUITE 125
P.O. BOX 944255
SACRAMENTO, CA 94244-2550

Public: (916) 445-9555
Telephone: (916) 210-7742
Facsimile: (916) 324-2960
E-Mail: Brian.Means@doj.ca.gov

March 5, 2021
Via Electronic Filing System
Mr. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Rodney Berryman v. Ron Davis, No. 20-6822
Request for Extension of Time

Dear Mr. Harris:
The petition for writ of certiorari in this case was filed December 31, 2020. Pursuant to
Rule 30.4, Respondent obtained an extension of time to file his response by March 12, 2021.
I have completed drafting the response, but need additional time in order for the Solicitor
General’s Office to complete its review. Therefore, Respondent requests a 31-day extension of
time, to April 12, 2021, for the filing of the response. An extension would better enable
preparation of a response that Respondent believes would be most helpful to the Court.
Opposing counsel, Saor E. Stetler, has no opposition to this request.
Sincerely,
/s/ Brian R. Means
BRIAN R. MEANS
Deputy Attorney General
For

BRM:ts
cc: Saor E. Stetler, Attorney for Petitioner
SA2021300175
Berryman Case No. 20-6822 Second Extension Letter.docx

XAVIER BECERRA
Attorney General

